                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
               Reporting Entity: Department of Transportation - OIG
             Month Ending Date: 01/31/2010

                                                          Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Recovery Act TAFS       Award Type      US Indicator      Total Obligations    Total Gross Outlays      Direct or      Ordering TAFS
                                                                                                                                          Reimbursable
No.
      Department of              (69-0131 2009 \ 2013)                         Y - US            $1,965,552            $1,697,542            Direct            N/A
      Transportation - OIG       Transportation - OIG -
 1                               Recovery Act
 2
 3
 4
 5
 6
 7
 8
 9
10

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau       FY 2009 Non-Recovery     Total FY 2009    Total FY 2009   FY 2010 Non-Recovery     Total FY 2010        Total FY 2010
                                        Act TAFS            Obligations     Gross Outlays         Act TAFS            Obligations         Gross Outlays
No.
   Department of Transportation - (69-0130 2009)               $1,569,106      $1,569,106 (69-0130 2010)                             $0               $0
 1 OIG                            Transportation - OIG                                    Transportation - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10




                                                                                                                          DOT OIG Monthly Report Num 11 01-31-10
                                                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 01/31/2010

                         FTE Working on Recovery
                                                                                                                                 Testimonies:
     Fiscal Year           2009                2010                 Cumulative
      Newly Hired FTE
                           0.77                 3.48                   4.25                                                    Provided (monthly):     0
         (cumulative):
        FTE Funded by
   Recovery Act Funds      1.54                 15.23                 16.77                                                 Provided (cumulative):     3
         (cumulative):
    FTE Not Funded by
   Recovery Act Funds     15.20                 0.00                  15.20
         (cumulative):

                                                                                                                     Audits / Inspections / Evaluations /
           Complaints                Whistleblower Reprisal Allegations                   Investigations                                                            Training / Outreach
                                                                                                                                   Reviews
          Monthly Data                         Monthly Data                               Monthly Data                          Monthly Data                           Monthly Data
                                                                                                                                                                      Training Sessions
            Received:      5                            Received:      0              Opened (this month):      2            Initiated (this month):   2                                   13
                                                                                                                                                                             Provided:
                                                                                 Active (as of the end of the           In Process (as of the end of
                                                        Accepted:      0                                        17                                   11            Individuals Trained:    537
                                                                                                     month):                            the month):

                                                                                                                        Completed Final Published                    Hours of Training
                                                                                          Pending Decision:     9                                      1                                   537
                                                                                                                                 Work Products:                             Provided:

                                                                                                                         Priority Interim Published                 Outreach Sessions
                                                                                     Closed without Action:     0                                      0                                    5
                                                                                                                                    Work Products:                        Conducted:

                                                                                                                                Unpublished Work
                                                                                  Accepted for Prosecution:     3                                      0
                                                                                                                                       Products*:
                                                                                       Prosecution Denied:    0
                                                                                    Referred for Alternative
                                                                                                              0
                                                                                                 Resolution:
 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009

                                                                                                                        Completed Final Published                     Training Sessions
            Received:     204                           Received:      0             Closed without Action:     2                                      7                                   168
                                                                                                                                 Work Products:                              Provided:

                                                                                                                         Priority Interim Published
                                                        Accepted:      0          Accepted for Prosecution:     16                                     0           Individuals Trained:   11,798
                                                                                                                                    Work Products:

                                                                                                                                Unpublished Work                     Hours of Training
                                                                                        Prosecution Denied:     1                                      0                                  11,698
                                                                                                                                        Products:                           Provided:
                                                                                    Referred for Alternative                                                        Outreach Sessions
                                                                                                                1               Cumulative Total:      7                                   140
                                                                                                 Resolution:                                                              Conducted:
                                                                                         Cumulative Total:      20


                                                                                                                                                       DOT OIG Monthly Report Num 11 01-31-10
                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 01/31/2010

       No.                        OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On January 4, the DOT OIG initiated an evaluation of high speed rail forecasting best practices. The objectives of this
                     evaluation are to: (1) assess the strengths and weaknesses of various methodologies used to develop high speed rail and
         1
                     intercity passenger rail ridership and revenue forecasts, cost estimates, and public benefits valuations; and (2) identify
                     best practices in the preparation of these forecasts.
                     On January 7, the DOT OIG issued a report on the "Department of Transportation's Suspension and Debarment (S&D)
                     Program. The report focuses on two issues (1) Operating Administration's S&D decisions and reporting have been
                     significantly delayed, which increases the risk that DOT and other agencies will award contracts and grants to parties that
         2
                     DOT will ultimately suspend or debar; and (2) weaknesses in DOT's S&D policies, procedures, and internal contols, which
                     make them inadequate to safeguard DOT's efforts to exclude prohibited parties from obtaining contracts and grants. We
                     made recommendation to address these issues and the Department agreed to take action.
                     On January 20, the DOT OIG initiated an audit of the Federal Highway Administration's (FHWA) oversight of high dollar
                     Recovery Act highway projects. The objective of this audit is to determine whether FHWA's oversight of selected higher
         3           dollar value Recovery Act projects has resulted in project compliance with key Federal-aid highway requirements for cost,
                     quality, and construction schedule.

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)

                     By March 31, the DOT OIG plans to initiate audits/reviews of the following: FHWA's oversight of improper payments,
         1           Federal Railroad Administration's (FRA) state-freight railroad capital agreements, FRA and states ability to plan and
                     manage high speed rail projects, Federal Transit Administration's (FTA) oversight of major transit projects in the New
                     York region, and FTA's oversight of grantees' Recovery Act contract award and administration practices.
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability
         2
                     to provide effective oversight to ARRA-funded projects and meet new requirements
         3           Continue to monitor for fraudulent schemes in the contracting process.




                                                                                                                   DOT OIG Monthly Report Num 11 01-31-10
                                                                                OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of Transportation - OIG
   Month Ending 01/31/2010
           Date:


                                                                                         TRAINING ACTIVITIES
                                                                                                                                                     Hours of
                                                                                            Training                     Length of                   Training                 Presentation    Average
                                                                                                            Date of                    Number of                   Cost of
     No.               Type of Training       Target Audience        Title of Training    Location (City,                 Training                  Provided                   with Other    Evaluation
                                                                                                            Training                  Participants                 Training
                                                                                              State)                      (hours)                    (length x                    OIGs         Rating
                                                                                                                                                   participants)
                                                                Fraud Prevention/        Brooklyn, New
       1         Fraud Prevention/Awareness   Mixed                                                         01/05/2010            1            52             52
                                                                Awareness Briefing       York
                                                                Fraud Prevention/        Philadelphia,
       2         Fraud Prevention/Awareness   Mixed                                                         01/11/2010            1            40             40
                                                                Awareness Briefing       Pennsylvania
                                                                Fraud Prevention/        San Francisco,
       3         Fraud Prevention/Awareness   Mixed                                                         01/13/2010            1            20             20
                                                                Awareness Briefing       California
                                                                Fraud Prevention/
       4         Fraud Prevention/Awareness   Mixed                                      Fort Worth, Texas 01/19/2010             1            36             36
                                                                Awareness Briefing
                                                                Fraud Prevention/
       5         Fraud Prevention/Awareness   Mixed                                      Atlanta, Georgia   01/20/2010            1            55             55
                                                                Awareness Briefing
                                                                Fraud Prevention/
       6         Fraud Prevention/Awareness   Mixed                                      Fort Worth, Texas 01/21/2010             1            24             24
                                                                Awareness Briefing
                                                                Fraud Prevention/
       7         Fraud Prevention/Awareness   Mixed                                      Atlanta, Georgia   01/22/2010            1            80             80
                                                                Awareness Briefing
                                                                Fraud Prevention/        Worcester,
       8         Fraud Prevention/Awareness   Mixed                                                         01/26/2010            1            50             50
                                                                Awareness Briefing       Massachusetts
                                                                Fraud Prevention/
       9         Fraud Prevention/Awareness   Mixed                                      Orlando, Florida   01/26/2010            1            40             40
                                                                Awareness Briefing
                                                                Fraud Prevention/        Northhampton,
      10         Fraud Prevention/Awareness   Mixed                                                         01/27/2010            1            20             20
                                                                Awareness Briefing       Massachusetts
                                                                Fraud Prevention/        Baltimore,
      11         Fraud Prevention/Awareness   State                                                         01/27/2010            1            15             15
                                                                Awareness Briefing       Maryland
                                                                Fraud Prevention/        Providence,
      12         Fraud Prevention/Awareness   State                                                         01/28/2010            1            20             20
                                                                Awareness Briefing       Rhode Island
                                                                Fraud Prevention/
      13         Fraud Prevention/Awareness   Mixed                                      Atlanta, Georgia   01/28/2010            1            85             85
                                                                Awareness Briefing
                                                                                                                          TOTAL               537            537




                                                                                                                                                                      DOT OIG Monthly Report Num 11 01-31-10
                                                                     OIG Recovery Act Monthly Report



                                      OUTREACH ACTIVITIES
                                        Number of
                                      Organizations                                   Outreach
         Organization to which                                                                         Date of
No.                                   Represented at Description of Outreach        Location (City,
          Outreach Provided                                                                           Outreach
                                        Outreach                                        State)
                                         Session
                                                      Discussed Fraud
      New Jersey Transit, Office of
1                                                   1 Prevention/Awareness         New Jersey         01/05/2010
      Diversity Programs
                                                      Training Opportunities
      Connecticut Department of                       Discussed Training
2                                                   1                              Connecticut        01/07/2010
      Transportation                                  Opportunities
      Massachusetts Department of                     Discussed Ongoing
3                                                   1                              Massachusetts      01/07/2010
      Transportation                                  Recovery Act Projects
      Texas Department of                             Discussed Fraud Prevention
4                                                   1                              Fort Worth, Texas 01/11/2010
      Transportation                                  Strategies
                                                    Panel Discussion on
                                                    "Federal and Massachusetts
5     Construction Industry                 Unknown Public Construction Projects- Massachusetts       01/19/2010
                                                    New and Expanded
                                                    Requirements"




                                                                                                                   DOT OIG Monthly Report Num 11 01-31-10
